DOE F 1325.8
    (4193)




United States Government                                                          Department of Energy

memorandum
     DATE:     June 24,2009                                            Audit Report Number: OAS-L-09-09
REPLY TO
 ATTN TO:      IG-32 (A08ET058)
 SUBJECT:      Report on "Audit of Closure of Subcontracts at the Savannah River Site"

       TO:     Manager, Savannah River Operations Office

               INTRODUCTION AND OBJECTIVE

               A significant amount of Federal funds expended at the Savannah River Site are
               attributable to subcontracts for goods and services. In Fiscal Year (FY) 2008,
               $312 million of $1.3 billion in total obligations were made for subcontracts. The
               Savannah River Site is managed and operated by Savannah River Nuclear Solutions,
               LLC (SRNS) through a prime contract with the Department of Energy's (Department)
               Savannah River Operations Office. Prior to August 2008, the site was managed and
               operated by Washington Savannah River Co., LLC (WSRC).

               SRNS is expected to ensure that subcontracts are closed within a reasonable period of
               time after all actions are complete. Timely close-out actions of subcontracts are vital to,
               among other things, ensuring that unexpended fbnds are de-obligated so that they can be
               used for other purposes. In the absence of contractor benchmarks, we relied on Federal
               standards to determine a reasonable timeframe to measure subcontract close-out
               activities. According to the Federal Acquisition Regulations (FAR), Federal contracts are
               complete when the required goods or services have been delivered and accepted, and the
               Government has given notice that the contract is terminated or it has expired. The FAR
               suggests that cost-type contracts should be closed within 36 months of completion; firm-
               fixed-price contracts should be closed within 6 months of completion; and other types of
               contracts, such as fixed-price contracts, should be closed within 20 months of
               completion. Close-out activities include settling indirect cost rates, obtaining final
               invoices, auditing contract files, and ensuring that excess funds are de-obligated.

               The Office of Inspector General has issued a number of reports that identified problems with
               closing subcontracts in a timely manner. For example, in our "Report on Management Controls
               over Subcontract Administration at the National Security Laboratories" (OAS-M-04-06,
               August 2004), we identified 287 subcontracts at 3 sites that had been awaiting close-out
               for more than 3 years. In light of the significant expenditures for subcontracts, we
               initiated this audit to determine if subcontracts were being closed in a timely manner at
               the Savannah River Site.
CONCLUSION AND OBSERVATIONS

Subcontracts, previously administered by WSRC and now overseen by SRNS, were not
always closed in a timely manner. Close-out of 133 completed subcontracts totaling
$413 million had not been achieved within the guidelines established by the FAR. This
condition was noted in cost-type subcontracts, including cost-type agreements with
educational institutions, as well as fixed-price subcontracts. Specifically, as of October
2008:

        According to information provided by SRNS, close-out of 126 cost-type
        subcontracts valued at more than $404 million had not been completed within the
        36-month FAR benchmark. Further, more than half of these cost-type
        subcontracts had been completed for more than nine years. For example, one
        subcontract valued at $132 million ended in 1991, but remained open in October
        2008. Efforts to close the subcontract began in 2000, and documentation
        indicates that the final invoice had been paid and that closure was recommended
        in 2004. As of February 2009, the subcontract was open and $200,723 of
        unexpended finds was still obligated to the subcontract;

        In another case, as of October 2008, a cost-type subcontract with an educational
        institution had not been closed, although 14 task orders valued at $7.5 million
        that were made under the subcontract had expired between 2001 and 2005.
        According to SRNS representatives, the task orders cannot be closed until the
        Savannah River Operations Office issues a final indirect rate agreement letter;
        and,

        Completed fixed-price subcontracts also exceeded the Federal benchmarks. We
        noted 7 completed subcontracts totaling $8.6 million which remained open
        beyond the 20-month benchmark for these types of subcontracts.

We concluded that WSRC and SRNS had not made the closure of subcontracts a priority
because the Department had not emphasized the need for subcontract closure.
Specifically, the Savannah River Operations Office had not included the timely closure of
subcontracts as a requirement of the WSRC or the SRNS contracts. Further, the
Department had not included the timeliness of subcontract closures as part of its reviews
of the contractors' purchasing systems.

Failure to close subcontracts in a timely manner may unnecessarily encumber fimds that
could be de-obligated and used for other purposes, and preclude the protection and
recovery of government-owned property provided to subcontractors. For instance, as of
October 2008, $6.7 million remained obligated to subcontracts that had been completed
but remained open. This issue becomes more significant in light of the work planned
under the American Recovery and Reinvestment Act of 2009 (Recovery Act). The
Savannah River Site recently received $1.6 billion in Recovery Act funds and will be
relying on subcontractors to perform some of the work. Subcontracts funded by the
Recovery Act must be closed in a timely manner so that unexpended funds can be de-
obligated and used to achieve the Recovery Act's objectives.
SUGGESTED ACTIONS

To address the issue discussed above, we suggest that you direct the Contracting Officer
to:

       Institute requirements or measures requiring timely subcontract closures;

       Issue a final indirect rate agreement letter for the task orders discussed in this
       report; and,

       Direct SRNS to close the specific subcontracts identified in this report and de-
       obligate excess funds.

No recommendations are being made in this report; therefore, a formal response is not
required. We appreciate the cooperation of the Savannah River Operations Office staff
during this effort.




                                    Audits Division
                                  Office of Inspector General

Attachment

cc: Team Leader, Audit Liaison, CF-1.2
    Audit Liaison, Savannah River Operations Office
                                                                              Attachment

SCOPE AND METHODOLOGY

This review was performed between October 2008 and June 2009 at the Savannah River
Site in Aiken, South Carolina. The scope of our audit included subcontracts that were
open during Fiscal Years (FYs) 2007 and 2008. To accomplish our objective, we:

       Reviewed contract clauses pertaining to the administration of subcontracts;

       Reviewed policies and procedures for conducting cost reviews;

       Reviewed internal controls over subcontracts relative to cost allowability;

       Obtained a listing of all subcontracts open during FY 2007;

       Obtained a listing of subcontracts pending closure as of October 2008;

       Judgmentally selected open subcontracts for review;

       Judgmentally selected subcontracts pending closure for review; and,

       Held discussions with Departmental and contractor personnel.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. We also
assessed performance measures in accordance with the Government Performance and
Results Act of 1993 and found that performance measures were developed for
subcontract administration in general, but were not developed for subcontract close-outs
specifically. We did not assess the reliability of computer processed data since it was
not used to satisfy our audit objective. An exit conference was held with the Savannah
River Operations Office's Director, Office of Acquisition Management on June 12,2009.
